         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       EPA Can Improve Its Managing of
       Superfund Interagency Agreements
       with U.S. Army Corps of Engineers

       Report No. 2007-P-00021

       April 30, 2007
Report Contributors:                Mike Davis
                                    Heather Layne




Abbreviations

EPA             U.S. Environmental Protection Agency
IAG             Interagency Agreement
IPAC            Intra-governmental Payment and Collection
M&S             Management and Support
OARM            Office of Administration and Resources Management
OIG             Office of Inspector General
OSWER           Office of Solid Waste and Emergency Response
RPM             Remedial Project Manager
The Corps       U.S. Army Corps of Engineers




Cover photo:	     Sign located at the entrance to the Federal Creosote Superfund Site in
                  Manville, New Jersey, managed by the U.S. Army Corps of Engineers under
                  an EPA Interagency Agreement (EPA OIG photo).
                       U.S. Environmental Protection Agency                                             2007-P-00021

                                                                                                        April 30, 2007

                       Office of Inspector General


                       At a Glance

                                                                           Catalyst for Improving the Environment


Why We Did This Review           EPA Can Improve Its Managing of Superfund Interagency
                                 Agreements with U.S. Army Corps of Engineers
In Fiscal Year 2006, the U.S.
Environmental Protection
                                  What We Found
Agency (EPA) made about
$255 million in Superfund
Interagency Agreement (IAG)      EPA needs to better justify and support its decisions to enter into Superfund IAGs
payments to the U.S. Army        with the Corps. Decision memorandums used to justify awarding Superfund IAGs
Corps of Engineers (the          to the Corps did not contain comparisons of alternatives considered. Further, EPA
Corps). We sought to             did not develop independent cost estimates. This occurred because EPA generally
determine the effectiveness of   believes the Corps has more construction and contracting expertise to manage
EPA’s selection of the Corps     Superfund projects than its own personnel. As a result, EPA has limited assurance
to perform cleanup, as well as   that the Superfund IAGs it awards to the Corps are based on sound decisions.
EPA’s effectiveness in           EPA regions have initiated some corrective actions, but further steps are needed.
monitoring Corps-conducted
cleanups.
                                 EPA also needs to improve its monitoring of IAGs with the Corps to better
Background                       manage cost, timeliness, and quality. Specifically, the Agency needs to:

The goal of the Superfund            •	 Ensure the Corps improves the quality and timeliness of monthly invoices
program is to clean up                  and progress reports it submits to EPA.
hazardous waste sites that           •	 Ensure it knows what services the Corps is being paid for and that the
pose risks to human health and          amount billed is based on clear supporting documentation.
the environment. EPA                 •	 Include terms and conditions in IAGs that establish criteria against which
accomplishes Superfund goals            the Corps’ performance will be evaluated.
through a variety of
mechanisms, including IAGs.      EPA regions indicated they were generally very satisfied with the majority of the
An IAG is a written agreement    work performed by the Corps. Nonetheless, EPA needs to better monitor the more
in which one Federal agency      than $250 million it pays to the Corps each fiscal year to clean up Superfund sites.
(such as EPA) obtains supplies   Improved monitoring would also eliminate $2.5 million in excess and idle
and services from another        Management and Support fees that EPA paid the Corps that could be put to better
agency (such as the Corps) on
                                 use in the Superfund program.
a reimbursable basis.
                                  What We Recommend
For further information,
contact our Office of            EPA needs to develop its own independent cost estimates for Corps in-house costs,
Congressional and Public         conduct cost analysis of alternatives when determining whether to use the Corps,
Liaison at (202) 566-2391.
                                 and document actions taken. EPA also needs to require the Corps to improve the
To view the full report,         format of its monthly reports, use the Intra-governmental Payment and Collection
click on the following link:     System to reimburse the Corps for its in-house costs, address the $2.5 million in
www.epa.gov/oig/reports/2007/    Management and Support fees being held by the Corps, include terms in future
20070430-2007-P-00021.pdf
                                 IAGs to allow better monitoring, and develop a plan on using feedback reports.
                                 EPA agreed with all but one of our recommendations, and for this
                                 recommendation it proposed an alternative action that meets the intent of our
                                 recommendation.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                           OFFICE OF
                                                                                      INSPECTOR GENERAL




                                          April 30, 2007

MEMORANDUM

SUBJECT:               EPA Can Improve Its Managing of Superfund Interagency
                       Agreements with U.S. Army Corps of Engineers
                       Report No. 2007-P-00021


FROM:                  Melissa M. Heist
                       Assistant Inspector General for Audit

TO:                    Susan Parker Bodine
                       Assistant Administrator
                       Office of Solid Waste and Emergency Response

                       Luis A. Luna
                       Assistant Administrator
                       Office of Administration and Resources Management


This is our final report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This audit report contains findings that
describe the issues the OIG has identified and corrective actions the OIG recommends. This
audit report represents the opinion of the OIG and the findings contained in this report do not
necessarily represent the final EPA position. Final determinations on matters in this audit report
will be made by EPA managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $216,840

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestone dates.

If you or your staff have any questions regarding this report, please contact me at
202-566-0899 or heist.melissa@epa.gov; or Carl Jannetti, Product Line Director, at
215-814-5800 or jannetti.carl@epa.gov.
        EPA Can Improve Its Managing of Superfund Interagency Agreements with
                             U.S. Army Corps of Engineers




                               Table of Contents 


Chapters
1	   Introduction ...........................................................................................................      1


             Purpose ..........................................................................................................    1         

             Background ....................................................................................................       1         

             Noteworthy Achievements..............................................................................                 2         

             Scope and Methodology.................................................................................                2

             Prior Reports ..................................................................................................      4


2	   IAG Award Process Could be Further Improved................................................                                   5


             Regional Decisions Need Better Justification ................................................                         5

             OSWER Requirements Not Followed.............................................................                          7

             Recommendations .........................................................................................             9         

             Agency Comments and OIG Evaluation ………………………………………...                                                                 9


3	   EPA Needs to Improve Monitoring of Superfund IAGs 

     Awarded to the Corps ..........................................................................................              10 


             Timeliness of Corps Monthly Reports Needs Improvement ...........................                                    10 

             Quality of Corps Monthly Reports Also Needs Improvement .........................                                    12 

             Payment Process Needs Change ..................................................................                      12 

             EPA Needs to Improve Oversight of Management and Support Fees ...........                                            13 

             EPA Needs Criteria to Evaluate Corps Performance .....................................                               14 

             Recommendations .........................................................................................            15         

             Agency Comments and OIG Evaluation.........................................................                          15 


Status of Recommendations and Potential Monetary Benefits.................................                                        17     




Appendix
A    Feedback Reports .................................................................................................           18     


B    Agency Response to Draft Report .....................................................................                        19 


C    Distribution ...........................................................................................................     29     

                                Chapter 1
                                 Introduction

Purpose
          In Fiscal Year 2006, the U.S. Environmental Protection Agency (EPA) made about
          $255 million in Superfund Interagency Agreement (IAG) payments to the U.S.
          Army Corps of Engineers (the Corps). We conducted this audit to determine:

             • 	 The effectiveness of EPA’s analysis and selection of the Corps to perform
                 cleanup versus an EPA contractor, a State, or the Bureau of Reclamation.

             • 	 The effectiveness of EPA’s activities to ensure cleanups conducted by the
                 Corps are accomplished on time, within budget, and to quality standards.

Background
          The Superfund program was authorized under the Comprehensive Environmental
          Response, Compensation, and Liability Act of 1980. The goal of the program is
          to clean up uncontrolled hazardous waste sites that pose unacceptable risks to
          human health and environment. EPA accomplishes its Superfund goal through a
          variety of mechanisms that include contracts, partnerships with States, and IAGs.

          An IAG is a written agreement between Federal agencies in which one agency
          (such as EPA) needing supplies or services obtains them from another Federal
          agency (such as the Corps) on a reimbursable basis. An IAG can take a variety of
          forms. The work can be performed directly by the Corps staff on behalf of EPA,
          or the Corps can have the work performed by a contractor on behalf of EPA.
          EPA’s Grants Administration Division, within the Office of Administration and
          Resources Management (OARM), is authorized to enter into and execute IAGs
          for the Agency. The Office of Solid Waste and Emergency Response (OSWER)
          sets policies for managing Superfund sites. EPA policy requires decision
          memorandums to justify the award of IAGs.

          Remedial Project Managers (RPMs) in regional offices manage Superfund IAGs.
          RPMs recommend the mechanisms (e.g., another Federal agency such as the
          Corps) for cleaning up the site. RPMs have to work with EPA contracting
          officers and contractors when using EPA contracts. When RPMs use the Corps
          via IAGs, they have fewer contracting duties because they transfer to the Corps
          most of the administrative tasks for awarding and managing the cleanup contracts.
          EPA said that the Corps also offers unique strengths to the Agency in the areas of
          design, construction, claims, and independent government cost estimates.
          Further, RPMs have to monitor the contractor’s cost and work when EPA
          contracts are used, while the Corps monitors cost and work of the contractors


                                           1

         when IAGs are used. The RPM is responsible for monitoring the cost and work
         of the Corps through site visits, monthly reports, and conference calls.

         In Fiscal Years 2005 and 2006, EPA paid the Corps over $261 million and
         $255 million, respectively, for Superfund IAGs (see Table 1-2). These payments
         were for costs of the Corps oversight (in-house) as well as the cost for the Corps’
         contractor that performed the work.

          Table 1-2: Payments for Superfund IAGs Awarded to the Corps
          Fiscal Year 2005
          Non Direct Site Charges                                  $86,591,000      33%
          EPA Direct Site Payments to Corps’ Contractors          $174,652,000      67%
           Total                                                  $261,243,000
          Fiscal Year 2006
          Non Direct Site Charges                                  $74,759,000      29%
          EPA Direct Site Payments to Corps Contractors           $180,905,000      71%
           Total                                                  $255,664,000
          Source: EPA Cincinnati Finance Center




Noteworthy Achievements
         Regions 1, 2, and 3 demonstrated unique and notable achievements related to IAG
         management:

             •	 Region 1 designed and instituted a decision matrix to evaluate specific
                factors surrounding Superfund sites when deciding whether the best option
                for cleaning the site was to use the Corps or EPA’s response action
                contractors.

             •	 Region 2 compared the cost of services for the Corps to that of EPA’s
                response action contractors to determine, in general, whether IAGs with
                the Corps or response action contractors were more economical.

             •	 Region 3 established a regional management team, consisting of executive
                level managers, to review RPMs’ decisions to use the Corps or EPA’s
                response action contractors.

Scope and Methodology
         We performed this audit from July to December 2006 in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States. We selected IAGs for review, based on dollar amount or award date.
         Using these criteria, we reviewed 26 IAGs that Regions 1, 2, and 3 awarded to the


                                              2

Corps valued at $1 billion from a universe of 223 IAGs valued at almost
$1.9 billion.

We visited EPA headquarters in Washington, DC; Region 1 in Boston,
Massachusetts; Region 2 in New York, New York; and Region 3 in Philadelphia,
Pennsylvania. At headquarters we met with OSWER and OARM personnel to
discuss Superfund IAG policies and review documents. During our site visits in
the regions, we interviewed personnel and reviewed documents used for justifying
and managing Superfund IAGs.

To accomplish our first objective, we reviewed 12 IAGs valued at almost
$30 million awarded after January 2002. We limited the sample to IAGs awarded
after January 2002 to ensure applicability with OARM’s policy on decision
memorandums issued in 2002. We interviewed RPMs, project officers, and
others to determine why awarding an IAG to the Corps was the best alternative.
We also reviewed decision memorandums and other documents to determine the
justification cited for awarding IAGs to the Corps.

To answer our second objective, we interviewed OARM and OSWER personnel
responsible for establishing and implementing policy for managing IAGs with the
Corps. In the regions we interviewed RPMs, project officers, and other managers
responsible for monitoring IAGs. We reviewed statements of work, monthly
progress reports and invoices, and other documents used to monitor the 26 IAGs
in our sample. However, we only reviewed monthly reports for 17 of the 26
sample IAGs because the remainder were unavailable.

We reviewed management controls related to our objectives. As part of this
review, we examined EPA’s Fiscal Years 2005 and 2006 Integrity Act Annual
Assurance Letters for OSWER and the Fiscal Year 2005 letter for OARM.
OWSER did not report any material weaknesses pertaining to Superfund IAGs.
OARM continued to report on its progress in addressing the Agency level
weakness of Grants Management.

On October 29, 2004, in response to EPA OIG report 2005-P-00001, OSWER
indicated its Superfund Contracts Regional Review Program would review how
regions document decisions for entering into IAGs with the Corps. On August
19, 2005, OSWER reported in its 2005 Annual Assurance Letter that it had not
collected enough data to determine whether clarifying guidance was needed.
OSWER’s 2006 Annual Assurance Letter did not comment on this topic.

Other controls we reviewed included the feedback reports submitted by all 10
EPA regions. OSWER developed an electronic feedback form to determine the
degree of the RPMs’ satisfaction with the Corps and its contractors for all active
Superfund projects managed under IAGs. We focused on the reports from
Regions 2, 3, and 9 since they had comments that pertained to our review.




                                 3

          EPA responded to our draft report on March 28, 2007. We summarized their
          response and included our evaluation at the end of Chapters 2 and 3.

Prior Reports

          We researched prior EPA OIG, Government Accountability Office, and other
          reports and noted two pertinent EPA OIG reports:

                •	 EPA OIG Report No. 2005-P-00001, Response Action Contracts:
                   Structure and Administration Need Improvement, December 2004:
                   We reported that EPA regions do not consistently document the rationale
                   for deciding which procurement option to use for Superfund cleanups. We
                   also noted that EPA does not have a process to measure and disseminate
                   information on the Corps’ past performance in support of EPA.

                •	 EPA OIG Report No. 2001-P-00011, Superfund: Superfund
                   Interagency Agreements, June 2001: We reported that EPA generally
                   had effective controls to ensure its Superfund IAGs achieve expected
                   environmental results timely and efficiently. However, we noted areas in
                   which EPA could make improvements. In particular, the 1991 OSWER
                   Directive 9242.3-08 Revision of Policy Regarding Superfund Project
                   Assignment Between Alternative Remedial Contracting Strategy
                   Contractors and the U.S. Army Corps of Engineers was superseded, but
                   still used to assign Superfund work between EPA contractors and IAGs
                   with the Corps.




                                            4

                                Chapter 2
    IAG Award Process Could be Further Improved
          EPA needs to better justify and support its decisions to enter into Superfund IAGs
          with the Corps. Eleven of the 12 decision memorandums we reviewed for
          projects awarded to the Corps contained no comparisons of alternatives. Further,
          EPA did not develop its own independent cost estimates. This occurred because
          EPA generally believes the Corps has more construction and contracting expertise
          to manage Superfund projects than its own personnel. Also, OSWER and OARM
          did not hold regions accountable to follow policies for awarding and justifying
          IAGs. As a result, EPA has limited assurance that the approximately
          $255 million that EPA paid to the Corps in Fiscal Year 2006 to manage
          Superfund IAGs was based on sound decisions. Prior to our audit, some EPA
          regions had initiated corrective measures, such as developing a decision matrix
          (Region 1) and establishing a regional management team to evaluate alternatives
          (Region 3). While we believe these are worthwhile processes, further
          improvements to these processes would make them more effective.

Regional Decisions Need Better Justification
          In January 2002, OARM’s Grants Administration Division issued IAG Guidance
          on Use of Interagency Agreements that requires EPA to prepare decision
          memorandums that include:

             •	 Information on alternatives to IAGs.
             •	 Determinations that costs are reasonable based on an independent estimate
                of costs or other appropriate cost information developed by EPA.
             •	 An explanation as to why the other Agency was selected.

          The decision memorandum is the key document that EPA uses and reviews to
          justify awarding the IAG.

          Of the 26 IAGs we sampled, 12 were awarded by Regions 1, 2, and 3 after
          OARM issued its January 2002 guidance. Our review of these 12 IAGs, valued at
          almost $30 million, determined that:

             •	 Only one decision memorandum discussed alternatives to the Corps.
             •	 The files for another five of these IAGs (but not the decision
                memorandums) showed the region considered alternatives to the Corps.
             •	 For the remaining six IAGs, there was no documented evidence to indicate
                that regional offices considered alternatives before using the Corps.




                                           5

                    See Table 2-1 for a breakdown. Moreover, none of the 12 decision
                    memorandums contained an EPA-developed cost estimate of the Corps’ costs.
                    (Region 3 did develop a cost estimate for one IAG but did not discuss it in the
                    decision memorandum.) As a result, EPA spent approximately $28 million to
                    procure the services of the Corps and its contractors without preparing its own
                    cost estimate to ensure the prices proposed by the Corps were reasonable.

          Table 2-1: Details on 12 IAGs Reviewed
                                                                    Documentation in            Alternative
                                                                     Decision Memo              Considered
                                                                   EPA                          But Not in
                                                  Award            Cost     Alternative          Decision
           Region           Site Name            Amount          Estimate Considered              Memo
             1        Atlas Tack                $14,340,000         No          No                  Yes
             1        Elizabeth Mine              3,200,000         No          No                  Yes
             1        Eastland Wools Mills        3,500,000         No          No                  Yes
             1        Selresim                      900,000         No          No                  Yes
             2        Hooker I                       75,000         No          No                  No
             2        Hooker II                      75,000         No          No                  No
             3        Westinghouse                  250,000         No          No                  No
             3        William Dick Lagoon           306,000         No          No                  Yes
             3        Eastern Diversified            80,000         No          No                  No
             3        Safety Light                2,000,000         No1         Yes                 NA
             3        Big John Salvage            4,590,000         No          No                  No
             3        RCRA                          525,000         No          No                  No
                                                $29,841,000 


          Source: EPA’s IAG Database and Decision Memorandums

                    Instead of referring to a cost estimate, the Region 2 decision memorandums stated
                    “the projected budget furnished by [the Corps] ... has been reviewed by EPA staff
                    and has been determined to be reasonable in relation to the level of [the Corps] ...
                    involvement expected at this site.” The Region 1 decision memorandums
                    showed total estimated cost, but did not include further breakdown of costs
                    needed for an adequate cost estimate. Moreover, there was no indication of how
                    or who developed the Region 1 estimates, and two Region 1 RPMs told us they
                    relied on the Corps to provide cost estimates. We agree there are instances for
                    which EPA may want to utilize the Corps because of specialized expertise. For
                    example, Superfund activities that involve unexploded ordinance is an area in
                    which the Corps has unique expertise. However, without comparing the Corps’
                    cost estimate to an EPA-developed cost estimate, EPA cannot be assured that the
                    cost proposed by the Corps is reasonable or appropriate.

                    Several RPMs told us that they often relied on the Corps to prepare the estimates.
                    OSWER personnel also believed EPA could rely on the Corps’ estimates without
                    performing its own formal analysis. They said they believed the Corps was less

1
    Independent cost estimate developed by Region 3 but not discussed in decision memorandum.


                                                         6

         expensive and better suited to manage the remedial Superfund activities than its
         own regions. However, an EPA cost estimate should still be developed and
         considered to determine if the costs proposed by the Corps are reasonable.

         In Fiscal Year 2004, EPA reported that it obligated approximately 56 percent of
         its remedial action funding to IAGs, 36 percent to contracts, and 8 percent in
         grants to States. Over the past 20 years, EPA policy has evolved to provide EPA
         regions the latitude to manage most cleanups, no matter what the dollar value.
         However, many EPA personnel still believe the Corps is better suited to manage
         Superfund cleanups. In 1984, EPA signed a Memorandum of Understanding with
         the Corps indicating the Corps will manage all cleanups paid for with Superfund
         money unless the Corps cannot provide necessary support. In 1988, EPA issued
         another memorandum that required only cleanups exceeding $5 million to be
         assigned to the Corps. In December 1991, EPA again revised its policy to require
         EPA to assign only remedial actions costing more than $15 million to the Corps.
         The latest policy, dated May 2003, removed all dollar thresholds and permitted
         EPA to manage all cleanups, no matter what the dollar value. However, the latest
         policy still encouraged the continued use of the Corps for larger projects, and
         EPA regions continue to rely heavily on the Corps.

         EPA’s 2004 internal study, Superfund: Building on the Past, Looking to the
         Future, also known as the “120-Day Study,” noted there is a perception in EPA
         that some regions are using IAGs as a default vehicle, instead of deliberately
         choosing an IAG, because of the Corps’ unique capabilities. This study
         recommended that regional senior management should be involved in selecting
         the cleanup mechanism (other Federal agency, remedial action contractor, or State
         agency) to ensure effective use of funds. However, we found the decision
         memorandums RPMs prepared did not include cost estimates and information
         pertaining to alternatives, when considered. EPA personnel often believed the
         expertise, resources, and experience of the Corps were more important than cost.
         In addition, the 2006 Performance Plan for RPMs did not include any critical job
         elements that pertained to the management of IAGs, lessening the incentive for
         following guidance.

OSWER Requirements Not Followed

         In addition to removing dollar thresholds when deciding to award IAGs to the
         Corps, OSWER’s May 2003 Superfund Policy for Assigning Work to the US
         Army Corps of Engineers identified seven factors that regions should consider and
         document when deciding whether to use either response action contracts or the
         Corps. This policy stated, “As with all procurements, analysis should be
         conducted to select the appropriate contracting vehicles.... All analyses should be
         documented in the site or contract file. The documentation should outline the
         reason behind the selection, especially any factors that were used to make the
         decision.”



                                          7

Although Regions 1 and 3 had potential best practices in this area, improvements
could be made. Region 1 utilized and documented a decision matrix, while
Region 3 developed a Site Advisory Outline for the Regional Management Team
process. The Region 1 decision matrix listed factors the RPM should consider
that were similar to those required in the May 2003 policy. The Region 3
Regional Management Team process consisted of involving executive level
managers in the decision making to ensure an RPM’s desire to award an IAG to
the Corps is justified. However, these processes did not consider all seven factors
required by the 2003 policy, as shown in Table 2-2.

Table 2-2: Factors Considered by Potential Best Practices
                                                     Potential Best Practice
                   May 2003 Policy                 Region 1          Region 3
             Source Selection Factors           Decision Matrix    Site Advisory
  1.   Site Characteristics                           Yes               Yes
  2.   Remedy Characteristics                         No                Yes
  3.   Local/Public Interest                          No                Yes
  4.   Experience/Regional Infrastructure             Yes                No
  5.   Capability/Capacity of Contractors             Yes                No
  6.   Conflict of Interest                           Yes                No
  7.   Unique Site Needs                              Yes               Yes
Source: EPA Policy and IAG Files

Also, a selection factor in the Region 1 decision matrix was outdated. The
decision matrix asked, “Is the work a Remedial Action with an estimated cost of
more [than] ... $15 million? ….If yes, then ... [the Corps] contractor support is
strongly suggested (1991 Guidance memo).” This factor became outdated when
OSWER’s 2003 policy removed the dollar threshold. The Region 1 and 3
processes are tools that have potential to support the justifications of all regions
for decisions made when awarding IAGs. However, the documents need to be
more comprehensive to ensure that all the factors from the May 2003 policy are
included and that Agency cost estimates are developed and considered.

EPA OIG Report No. 2005-P-00001 recommended that OSWER issue clarifying
guidance to regional offices about documenting its rationale for what entity will
perform cleanup. However, as of November 2006, EPA was still evaluating how
to clarify its guidance, but told us that they had verbally recommended that all
regional offices should consider using the Region 1 decision matrix. The issues
reported in this chapter demonstrate that the regions continued to utilize their own
processes, which are not in full compliance with established guidance. OSWER
needs to act expeditiously to clarify its guidance and ensure regions follow it.




                                   8

Recommendations

         We recommend that the Assistant Administrators for OSWER and OARM:

         2-1 	   Require that regional offices develop an EPA independent cost estimate
                 for the Corp’s oversight of IAGs.

         2-2 	   Require that regional offices conduct a cost analysis of alternatives when
                 determining whether to award an IAG and evaluate the analysis against an
                 EPA-developed cost estimate.

         2-3 	   Develop a process for holding regional offices and RPMs accountable for
                 complying with OSWER’s 2003 policy for assigning remedial work, and
                 OARM’s 2002 guidance to document in decision memorandums
                 justifications for IAGs based on an analysis of alternatives and EPA-
                 developed cost estimates.

Agency Comments and OIG Evaluation
         EPA concurred with our recommendations and is revising the OSWER May 2003
         policy to ensure that, prior to entering an IAG with the Corps, regional offices
         will prepare their own estimates for Corps in-house cost. The updated policy will
         require regional offices to conduct a cost analysis when determining whether to
         award an IAG to the Corps versus another alternative. The revised policy will
         also require improved documentation of regional decisions to award IAGs to the
         Corps versus other mechanisms. This documentation will include specific
         information on alternatives considered, why the IAG was selected, why the costs
         are considered reasonable based on an independent EPA estimate of Corps
         in-house costs, other factors considered, and what involvement regional
         management had in the decision.

         Instituting these requirements in a revised OSWER policy meets the intent of our
         recommendations. However, OSWER needs to ensure the new policy has a
         mechanism to hold regional offices accountable for compliance.

         EPA’s complete response is in Appendix B. OSWER’s response to this final
         report should include milestone dates indicating when its planned actions will be
         completed.




                                          9

                              Chapter 3
          EPA Needs to Improve Monitoring of
         Superfund IAGs Awarded to the Corps
         EPA needs to improve its monitoring of IAGs awarded to the Corps to better
         manage cost, timeliness, and quality. In October 2005, EPA recognized the need
         to improve its monitoring of Superfund IAGs awarded to the Corps and made
         changes to do so. However, the Agency still needs to:

            •	 Ensure the Corps improves the quality and timeliness of monthly invoices
               and progress reports it submits to EPA.
            •	 Ensure it knows what services the Corps is being paid for and that the
               amount billed is based on clear supporting documentation.
            •	 Include terms and conditions in IAGs that establish criteria against which
               the Corps’ performance will be evaluated.

         The need to improve monitoring of IAGs awarded to the Corps still exists because
         EPA generally believes the Corps is another Federal agency that is more qualified
         to manage Superfund construction projects than EPA. EPA regions indicated they
         were generally very satisfied with the majority of the work performed by the
         Corps. Nonetheless, EPA needs to better monitor the more than $250 million it
         pays to the Corps each fiscal year to clean up Superfund sites. Improved
         monitoring would also eliminate $2.5 million in excess Management and Support
         fees that EPA paid the Corps.

Timeliness of Corps Monthly Reports Needs Improvement
         EPA Resources Management Directive 2550D, Financial Management of the
         Superfund Program Superfund Interagency Agreements, issued in 1988, requires
         EPA to obtain from the Corps monthly progress reports, within the first 10 days
         of the following month. The reports are to include information about timeliness,
         cost, and quality of cleanups. The directive also requires the Corps to provide
         documentation that supports all direct and indirect costs.

         The EPA Remedial Design/Remedial Action Handbook, EPA 540/R-95/059,
         issued in 1995, states that the Corps is to provide monthly progress reports to
         RPMs as a tool for gauging site progress. EPA implemented this guidance in
         statements of work we reviewed by specifying that the Corps must submit
         monthly reports to EPA. For example, the terms and conditions in the statement
         of work for one IAG we reviewed, valued at over $178 million, specified that
         each month the Corps must provide the RPM:




                                         10

       •	 Summaries of work performed for the current period.
       •	 Estimates of the percentage of the project completed.
       •	 An accounting of funds expended for the reporting period and project
          to date.
       •	 Summaries of all problems or potential problems encountered.
       •	 Projected work for the next month.
       •	 Copies of all ... requests for reimbursement (SF 1080) for all Corps
          in-house costs submitted to EPA for payment that month.

We reviewed monthly reports for 17 of the IAGs in our sample. For eight of
these IAGs, the Corps submitted late monthly reports to EPA, with some reports
submitted as late as a year after the Corps performed the work (see Table 3-1). In
total, we reviewed 40 monthly reports for the 17 IAGs and found that the Corps
submitted 19 of them to EPA late.

Table 3-1: IAGs with Late Monthly Reports
                         Number of          Lateness of Reports
       IAG              Late Reports            (in Months)
    944216-01-0               1               	      2            

    944170-01-0               5                     2–6
    944173-01-0               4	                   1 – 12 

    944162-01-0               1                      5
    944174-01-0               4	                    5–7

    941732-01-0               1                      2
    934141-01-0               2	                    1–3

    934140-01-0               1                      3
Source: Monthly Reports Regions Received from the Corps



While five of the eight IAGs with late reports were awarded by Region 3, it was
not because that region did not attempt to rectify the condition. Interviews with
the RPMs responsible for the six IAGs awarded by Region 3 disclosed all were
dissatisfied with the Corps’ monthly reports. Further, documentation in these
RPM files contained correspondence expressing this dissatisfaction. For example,
in a September 2005 email to the Corps, the RPM states:

       It seems that no matter how we at EPA plead, cajole, beg, and
       point out [the Corps’ reporting requirements under the IAGs],
       [the Corps’] financial reporting to the RPMs continues to be
       abominable.

In feedback reports, Region 9 RPMs also expressed frustration with the timeliness
of the Corps’ reports. For example, they wrote in feedback reports that the Corps
sometimes went a year without submitting reports. They also noted they did not
always get billings or monthly reports. Further examples of displeasure noted in
feedback reports from Region 2, 3, and 9 RPMs are included in Appendix A.



                                   11

Quality of Corps Monthly Reports Also Needs Improvement
          Our review of the monthly reports that the Corps submitted to Regions 1, 2, and 3
          disclosed problems with quality. Regions 2 and 3, along with Region 9, had
          previously noted these problems in feedback reports.

          RPMs routinely identified in feedback reports problems with the Corps’ monthly
          reports. RPMs did not always understand the charges on the Corps’s monthly
          invoices because reports did not give detailed information for labor billings.
          These same RPMs expressed concern over an inability to determine from the
          reports who charged to the project and what work they performed. For example,
          one feedback report, for an IAG valued at almost $109 million, stated: "The
          reports do not give very detailed cost breakdowns, for example I cannot determine
          who is charging to the project and what work is accomplished by those who
          charge to the project." See Appendix A for more examples.

          Besides labor, the Corps’ invoices include many other charges, such as
          departmental overhead, general and administrative overhead, and a headquarters’
          Management and Support fee. Despite Agency requirements to verify indirect
          Corps costs, EPA could not provide any evidence to indicate that any audit
          organizations reviewed how the Corps developed its indirect costs. Moreover,
          EPA did not prepare detailed estimates for the cost of the Corps’ staff hours and
          associated overhead and compare them to the actual costs billed. EPA policy
          requires program offices to prepare cost estimates for IAGs and ensure that all
          direct and indirect costs are supported.

          While the composition of these Corps indirect costs could not be clearly
          accounted for and explained, some headquarters and regional personnel indicated
          they were not concerned with the ambiguity because the Corps is another Federal
          agency. They said the Corps, like EPA, is responsible for efficiently managing
          Federal funds and is not in business to make money.

          Without timely and quality progress reports, EPA cannot effectively assess work
          progress, as well as evaluate the reasonableness of the Corps’ actual costs.

Payment Process Needs Change

          There is no incentive for the Corps to provide EPA clear, detailed monthly reports
          in a timely manner because it is paid for the work performed before the reports
          are submitted. Except for final payments, the RPM does not approve the Corps’
          invoice before or after payment is made. EPA’s payment office reimburses the
          Corps solely based on the invoice submitted by the Corps. The statement of work
          for one IAG stated, “Upon receipt of the [Corps] certified bill, [Cincinnati
          Finance Center] processes payment to [the Corps]. Payment will be made within
          5 days of receipt and without certification by the EPA Regional program offices
          except for final billings.”


                                          12

         The current payment process is unique within EPA and is only used for Corps
         Superfund IAGs. Under this process, EPA cannot charge back payments the
         program office disputes once the payments have already been made to the Corps.
         Instead, credits must be made against future Corps billings.

         All other EPA IAGs with other Federal agencies, including those for Superfund,
         are paid using the Intra-governmental Payment and Collection (IPAC) System.
         Under IPAC, the RPMs would approve payments to the Corps after payment is
         made. However, IPAC provides a more effective process to dispute payments.
         The process allows the RPM to input a “chargeback” (refund) if it is determined
         the payment was unjustified. As part of its fiduciary responsibility, EPA needs to
         ensure payments for Corps IAGs using its Superfund trust fund are justified.
         Therefore, EPA should use the more effective IPAC system for Corps IAGs.

EPA Needs to Improve Oversight of Management and Support Fees

         EPA headquarters has shifted oversight of Management and Support (M&S) fees
         to the Corps. EPA pays the Corps for managing cleanups on a monthly basis, as
         work is performed. Each monthly invoice contains billings for the work the
         Corps district office performed managing the cleanup, and includes an M&S fee
         based on the project costs billed. This M&S fee is currently set at 1.8 percent,
         and is placed into a revolving fund that is managed by the Corps. These funds are
         used to pay the Corps for work it performs at the request of EPA headquarters,
         such as:

            •   Resolving issues between Corps district offices.
            •   Assisting with 5-year reviews.
            •   Developing and providing technical guidance for EPA and the Corps.
            •   Conducting annual joint EPA and Corps Superfund conferences.
            •   Preparing and managing the M&S budget.

         This cycle continues throughout the year, and the Corps maintains the accounting
         of the M&S fees it holds for EPA. When we requested information from EPA
         staff about how much was in the M&S revolving account, they needed to obtain
         that information from the Corps. After we obtained this information, we
         determined that more than $2.5 million remained in the fund at the end of Fiscal
         Year 2006. Even though the funding may eventually be used, it represents funds
         that are sitting idle. Therefore, the $2.5 million represents idle funds that could be
         put to better use. The balance in this account will continue to grow unless annual
         plans are developed for using the funds. As of October 2006, EPA had not
         established any specific plans for how and when the excess M&S fees would be
         used. EPA headquarters needs to improve its oversight for these funds. This will
         enable EPA to manage the M&S fund balance fees and ensure excess funds are
         not provided to the Corps.



                                           13

EPA Needs Criteria to Evaluate Corps Performance
          In 2003, EPA issued the Evaluation of the Performance of the Corps of Engineers
          In Support of EPA’s Superfund Program (referred to as the “Quigley report”).
          This report recommended including criteria in IAGs to evaluate the Corps’
          performance. The suggested criteria included elements for cost control, quality,
          timeliness of reporting, and project completion.

          Subsequent observations in EPA’s 2004 report, Superfund: Building on the Past,
          Looking to the Future (referred to as the “120-Day Study”), further supported the
          evaluation criteria called for in the Quigley report. Specifically, it included
          findings and recommendations that indicated:

             •	   EPA needs to manage IAGs better, particularly billing and oversight.
             •	   The overhead rates charged by the Corps appear to vary widely.
             •	   Frustration with the IAG billing process is widespread.
             •	   OSWER and OARM should analyze how much EPA is paying other
                  Federal agencies for indirect costs and other costs. For Corps IAGs, these
                  costs should be analyzed at the district level, not just the national level.

          In October 2005, in lieu of including criteria in the IAGs as recommend in the
          Quigley report, EPA instituted feedback reports that RPMs can complete to assess
          the cost, timeliness, and quality of the Corps’ work. However, EPA has not
          defined or formalized how the feedback reports will be used. The Corps’
          performance will be difficult to evaluate until EPA develops a formalized plan on
          how to use feedback reports.

          For example, according to documentation in an award fee review report, one of
          the 26 IAGs we reviewed, valued at almost $88 million, experienced poor Corps’
          oversight of its contractor. This resulted in a small corner of a building
          foundation collapsing due to over excavation. In addition, poor oversight resulted
          in problems with the contractor's performance regarding the bypass of sewer
          lines, poor planning, inaccurate costs estimates, and untimely work. Although the
          Corps and its contractor performed poorly, the Corps’ contractor received over
          $400,000 in questionable award fees during periods of poor performance. EPA
          also paid the Corps over $3 million despite insufficient oversight of its contractor.

          As a result of the lack of performance criteria in the IAGs, the Corps can perform
          poorly with no consequences. Further, other EPA offices may not be aware of the
          problems being experienced. Without a method to record occurrence of
          problems, the potential for a reoccurrence exists. This type of information is
          essential to manage IAGs.




                                           14

Recommendations
         We recommend that the Assistant Administrators for OSWER and OARM:

         3-1 	   Require the Corps to improve the format of its monthly reports so that
                 costs and activities correlate and can be clearly understood. RPMs must
                 be able to determine who in the Corps worked on the IAG, for how long,
                 the costs charged EPA, and what work was accomplished and remains to
                 be completed.

         3-2 	   Use the IPAC system to reimburse the Corps’ in-house costs for work
                 accomplished under IAGs.

         3-3 	   Develop a specific plan for using the $2.5 million in M&S fees held by the
                 Corps or require the Corps to refund these fees to EPA, and continue to
                 develop plans on an annual basis to address future fees.

         3-4 	   Require future IAGs awarded to the Corps to include terms and conditions
                 that will enable RPMs to monitor the Corps’ cost, quality, and timeliness.

         3-5 	   Develop a policy on how and when the feedback reports will be used as an
                 oversight tool to monitor and improve the cost, quality, and timeliness of
                 the Corps’ performance.

Agency Comments and OIG Evaluation
         OSWER concurred with all recommendations except for Recommendation 3-2.
         OSWER formed a joint EPA/Corps workgroup to improve, among other potential
         areas, format and timeliness of the Corps’ monthly reports. EPA developed a
         plan for using the $2.5 million in M&S fees that is anticipated to use the
         remaining balance by September 2008. OSWER and OARM will jointly
         determine whether generic terms and conditions should be added to improve
         monitoring cost, quality, and timeliness of Superfund IAGs awarded to the Corps.
         Moreover, OSWER is developing a plan for how and when the feedback reports
         will be used to improve monitoring the cost, quality, and timeliness of the Corps’
         performance.

         Concerning Recommendation 3-2, OSWER explained that it will assess whether
         IPAC should be used to reimburse the Corps for its in-house costs for the work its
         staff performed under the IAGs. However, OSWER does not intend to use IPAC
         to reimburse the Corps’ contractors.

         EPA’s actions taken and planned, including for Recommendation 3-2, should help
         improve its monitoring of IAGs awarded to the Corps. Our recommendation to
         use IPAC was intended to improve the monthly reports the Corps submits to EPA.



                                         15

The IPAC system has better controls than the current method of reimbursement to
ensure such monthly reports are provided to the regions.

EPA’s complete response is in Appendix B. OSWER’s response to this final
report should include milestone dates indicating when its planned actions will be
completed.




                                16

                               Status of Recommendations and
                                 Potential Monetary Benefits
                                                                                                                                POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                    Planned
 Rec.     Page                                                                                                     Completion   Claimed    Agreed To
 No.       No.                          Subject                           Status1         Action Official             Date      Amount      Amount

  2-1       9     Require that regional offices develop an EPA              O       Assistant Administrators for
                  independent cost estimate for the Corp’s oversight                   OSWER and OARM
                  of IAGs.

  2-2       9     Require that regional offices conduct a cost              O       Assistant Administrators for
                  analysis of alternatives when determining whether                    OSWER and OARM
                  to award an IAG and evaluate the analysis against
                  an EPA-developed cost estimate.

  2-3       9     Develop a process for holding regional offices and        O       Assistant Administrators for
                  RPMs accountable for complying with OSWER’s                          OSWER and OARM
                  2003 policy for assigning remedial work, and
                  OARM’s 2002 guidance to document in decision
                  memorandums justifications for IAGs based on an
                  analysis of alternatives and EPA-developed cost
                  estimates.

  3-1       15    Require the Corps to improve the format of its            O       Assistant Administrators for
                  monthly reports so that costs and activities                         OSWER and OARM
                  correlate and can be clearly understood. RPMs
                  must be able to determine who in the Corps
                  worked on the IAG, for how long, the costs charged
                  EPA, and what work was accomplished and
                  remains to be completed.

  3-2       15    Use the IPAC system to reimburse the Corps for            O       Assistant Administrators for
                  work accomplished under IAGs.                                        OSWER and OARM

  3-3       15    Develop a specific plan for using the $2.5 million in     O       Assistant Administrators for   09/30/2008    $2,500      $2,500
                  M&S fees held by the Corps or require the Corps to                   OSWER and OARM
                  refund these fees to EPA, and continue to develop
                  plans on an annual basis to address future fees.

  3-4       15    Require future IAGs awarded to the Corps to               O       Assistant Administrators for
                  include terms and conditions that will enable RPMs                   OSWER and OARM
                  to monitor the Corps’ cost, quality, and timeliness.

  3-5       15    Develop a policy on how and when the feedback             O       Assistant Administrators for
                  reports will be used as an oversight tool to monitor                 OSWER and OARM
                  and improve the cost, quality, and timeliness of the
                  Corps’ performance.




1O = recommendation is open with agreed-to corrective actions pending
 C = recommendation is closed with all agreed-to actions completed
 U = recommendation is undecided with resolution efforts in progress




                                                                                17

                                                                                        Appendix A
                                 Feedback Reports
      IAG Number     Region        $ Value                             RPM Comment
 1.     DW96934140     2        $108,763,660      The reports do not give very detailed cost
                                                  breakdowns, for example I cannot determine who is
                                                  charging to the project and what work is accomplished
                                                  by those who charge to the project.
 2.     DW96934141      2          93,400,000     I cannot determine who is charging to the project and
                                                  what work they have accomplished.
 3. DW96943877          3          15,108,613     We need to have status reports submitted
                                                  monthly.
 4.    DW96943802       3             287,207     If you don't know how to do a detailed cost estimate
                                                  with net present worth calculations, don't tell us you
                                                  can.
 5.    DW96943841       3             340,000     Revise the financial reporting at least to the level of
                                                  mere adequacy!
 6.    DW96943873       3             375,000     PPMD (Project Planning and Management Division)
                                                  support non-existent at times. In-house District costs
                                                  too high (vs. field support costs which were very
                                                  reasonable).
 7.    DW96944085       3              61,059     Other than cost tracking for the IAG, the monthly
                                                  report narratives are not extremely useful. Reports
                                                  are consistently late.
 8.    DW96944162       3             306,145     Monthly reports are continuously submitted late.
                                                  Currently the reports are four months behind.
 9.    DW96955430       9           3,470,000     The format of the monthly reports provided to me by
                                                  the [Corps] is not very informative. I think monthly
                                                  written reporting overall is the major weakness of the
                                                  [Corps]. A new format is needed to solve this
                                                  weakness.
10.    DW96955441       9           9,010,175     I didn't get any monthly reports. In spite of repeated
                                                  requests, including above mentioned visit, no reports.
                                                  The [Corps] went a year without submitting any
                                                  reports then delivered a data dump: coded printouts
                                                  about 2-inches thick, and that was supposed to
                                                  explain all expenditures for last year.
11.    	DW96955635      9             120,000     Provide useful financial reports in a timely manner, on
                                                  a monthly basis. The reports need to specify the
                                                  Corps personnel who charged time to the project, the
                                                  number of hours charged, and the cost of those hours.
                                                  The reports also need to state what was done during
                                                  the reporting period.
12.    DW96955584       9             526,444     There seems to be a huge amount of overhead
                                                  expended in tracking down the accounting and
                                                  resolving accounting issues.
13.    	DW96955587      9             247,193     Never got a billing. The amount we were originally
                                                  told this project would cost ($80 - 100 K) turned into
                                                  340 K.
14.    DW96955588       9             250,000     Given how tight Superfund dollars are the Corps
                                                  needs to assist EPA in projecting, monitoring, and
                                                  controlling costs.

Source: EPA Feedback Reports Completed by RPMs




                                                 18

                                                                                    Appendix B
                  Agency Response to Draft Report
March 28, 2007


MEMORANDUM


SUBJECT:         OSWER Response to Draft Audit Report “ EPA Can Improve its
                 Managing of Superfund Interagency Agreements with U.S. Army
                 Corps of Engineers” Project No. 2006-001265

FROM:            Susan Parker Bodine/s/
                 Assistant Administrator

TO:              Bill A. Roderick
                 Acting Inspector General

       Thank you for your evaluation of Superfund Interagency Agreements (IAGs) with the
U.S. Army Corps of Engineers (USACE) and for the opportunity to review the draft audit report
“EPA Can Improve its Managing of Superfund Interagency Agreements with U.S. Army Corps
of Engineers.” We will use your recommendations to continue to improve the IAG award and
monitoring process.

       The comments below represent a consolidated response from the Office of
Administration and Resources Management (OARM) and the Office of Solid Waste and
Emergency Response (OSWER). First, we provide historical context to EPA’s use of the
USACE for Superfund work. Second, we address each of the recommendations and provide
information about planned or initiated actions related to those recommendations. Third, we
provide additional comments to ensure that the final audit report contains accurate and current
information.

I. Background:

        We would first like to provide historical context to EPA’s use of the USACE for
Superfund work. At the inception of the Superfund, EPA recognized the need to develop a
construction program to address site cleanup projects. EPA determined that developing and
maintaining the infrastructure of construction expertise (including cost estimators, contract
administrators, and contract and claims attorneys) would be expensive, and that construction
expertise was available through the use of another federal agency – the Army Corps of
Engineers. The process of obtaining construction expertise from the USACE and their
contractors was revisited as part of the Superfund Contracts 2000 Strategy, and workgroup
members again found that the cost of developing this expertise within EPA was prohibitive.
Thus, for over 25 years, EPA has partnered with the USACE to provide Superfund with
construction expertise.


                                               19

         In addition to the USACE, EPA also uses EPA awarded contracts for smaller projects.
These contracts, currently named the Remedial Action Contracts (RACs), are primarily used for
smaller and less complex projects. As projects increase in scope and complexity, EPA has found
that in most cases a Federal construction manager is necessary. Thus the USACE, with their
ability to maintain a federal presence on site, are selected for these projects. The Regions are
delegated authority to enter into IAGs with the USACE for the management of site-specific
work, and the bulk of the funds awarded under IAGs to the USACE are Regional IAGs. The
EPA/USACE partnership has been integral in helping EPA accomplish over 1000 construction
completions at Superfund sites.


II. OIG RECOMMENDATIONS AND EPA RESPONSE:

OIG Recommendation 2-1: Require that regional offices develop an EPA independent cost
estimate for the USACE oversight of IAGs.

EPA Response:

     OSWER agrees that EPA should prepare and document an estimate of anticipated
USACE staff hours and costs prior to entering into an IAG with USACE.

       OSWER will reissue EPA’s May 2003 policy on assigning work to USACE. In this
updated policy, OSWER will require that Regions prepare a budget for anticipated USACE Full
Time Equivalent (FTE) hours/costs, travel and other direct costs prior to entering into an IAG
with USACE. This budget estimate would be prepared by the remedial project managers
(RPMs) or project officers before commencing IAG scoping discussions with USACE (e.g.,
before USACE procures a contractor for remedial design (RD) or remedial action (RA) work).
This estimate is limited to anticipated USACE staff hours and costs for USACE in-house design
or construction services. This estimate is separate from the detailed Independent Government
Cost Estimate (IGCE) that will be prepared by USACE and reviewed by EPA for work
performed by contractors on site-specific RD or RA projects, or for technical support (e.g., PRP
oversight, real estate acquisitions, etc.). The IGCE would be prepared by skilled USACE cost
estimators before procuring the RD or RA contractor.


OIG Recommendation 2-2 Require that regional offices conduct a cost analysis of alternatives
when determining whether to award an IAG and evaluate the analysis against an EPA-developed
cost estimate.

EPA Response:

        OSWER has agreed that EPA Regions should prepare and document an estimate of
anticipated USACE staff hours and costs prior to entering into an IAG with USACE to let and
manage design or construction contracts under Superfund.



                                               20

        When OSWER updates the May 2003 policy on assigning work to USACE, OSWER will
require that Regions prepare a budget for anticipated USACE Full Time Equivalent (FTE)
hours/costs, travel and other direct costs prior to entering into an IAG with USACE. OSWER
also will require improved documentation of Regional decisions regarding use of USACE vs.
other mechanisms in this updated policy. This updated policy should bring Regions into
compliance with Office of Administration and Resources Management’s (OARM) 2002
guidance for documenting justifications for IAGs based on an analysis of alternatives and EPA-
developed cost estimates.


OIG Recommendation 2-3: Develop a process for holding regional offices and RPMs
accountable for complying with OSWER’s 2003 policy for assigning remedial work, and the
Office of Administration and Resources Management’s (OARM) 2002 guidance to document in
decision memorandums justifications for IAGs based on an analysis of alternatives and EPA-
developed cost estimates.

EPA Response:

        OSWER agrees that improvements are needed in documenting decisions on assigning
remedial work. OSWER will reissue EPA’s May 2003 policy on assigning work to USACE, and
will include the following requirements for improving documentation of Regional decisions
regarding use of USACE vs. other mechanisms:
•	 Regions should document all alternatives to the IAG considered by the Regions, why the
    IAG mechanism with the USACE was selected, and why estimated USACE staff hours and
    costs for the proposed work are considered to be reasonable, based on an EPA estimate of
    anticipated USACE staff hours and costs developed for use in negotiating the IAG with the
    USACE.
•	 Regions normally consider several selection factors when making these decisions; these
    factors will be further described in the policy to be reissued.
•	 Regions shall document Regional management involvement in decisions.


OIG Recommendation 3-1: Require the Corps to improve the format of its monthly reports so
that costs and activities correlate and can be clearly understood. RPMs must be able to
determine who in the Corps worked on the IAG, for how long, the costs charged EPA, and what
work was accomplished and remains to be completed.

EPA Response:

        OSWER agrees that the format and timeliness of USACE monthly reports should be
improved. A joint EPA/USACE workgroup has recently been formed which will further assess
issues associated with monthly reports and invoices, areas for improvement, and recommended
follow-up actions.




                                             21

OIG Recommendation 3-2: Use the IPAC system to reimburse the Corps for work
accomplished under IAGs.

EPA Response:

       OSWER does not agree that the Intra-governmental Payment and Collection (IPAC)
system should be used to reimburse contractors under the Direct Cite Process for work
accomplished under IAGs. OSWER will further assess and consider whether to use the IPAC
system to reimburse the USACE for payment of USACE staff work accomplished under IAGs.

       In the report, the OIG does not, but should, distinguish between EPA direct payments to
the USACE construction contractor under the Direct Cite Process, and payment of USACE
invoices for USACE in-house costs.

       Regarding the Direct Cite Process, as the project manager and holder of the contract, the
USACE reviews contractor invoices and approves the charges. If the USACE has issues with the
invoice, the USACE follows standard contracting procedures and may suspend or disallow costs.
The USACE forwards request for payment to the EPA Cincinnati Finance Center for prompt
payment using Superfund funds. Payment of the contractor invoice by the EPA Cincinnati
Finance Center constitutes the Direct Cite Process.

       Regarding payment of USACE in-house invoices for staff work accomplished under
IAGs, OSWER will further assess and consider whether to change to the IPAC system to
reimburse the USACE for these costs. As discussed earlier, the USACE in-house invoices to be
reviewed in this assessment would not include invoices for payments to contractors, since such
payments are considered part of the Direct Cite Process.

        OSWER also recognizes the need to improve the timely receipt of appropriate
documentation associated with monthly invoices for work conducted under site-specific IAGs.
A joint EPA/USACE workgroup has recently been formed which will further assess issues
associated with monthly reports and invoices, areas for improvement, and recommended follow-
up actions.




                                              22

OIG Recommendation 3-3: Develop a specific plan for using the $2.5 million in Management
and Support (M&S) fees held by the Corps or require the Corps to refund these fees to EPA, and
continue to develop plans on an annual basis to address future fees.

EPA Response:

        OSWER has an established plan in place for use of the $2.5 million in M&S fees held by
USACE and will update this plan to address expanded technical support activities to be funded
with these fees. The accrual of $2.5 million in M&S fees was a one-time occurrence in the first
year of converting from a centrally managed M&S fee system to a fee system that distributed
M&S fees to individual IAGs. The collection and use of M&S fees is carefully monitored by
OSWER on a quarterly basis, and the annual M&S budget is reviewed and compared against
actual expenditures. OSWER plans to draw down the remaining M&S fees through funding
work that would normally be paid for from Superfund’s annual budget. To date, less than $1.6
million of the $2.5 million remains to be distributed. OSWER anticipates that these remaining
funds will be completely utilized by the end of FY-08.


OIG Recommendation 3-4: Require future IAGs awarded to the Corps include terms and
conditions that will enable RPMs to monitor the Corps’ costs, quality, and timeliness.

EPA Response:

        OSWER and OARM agree with this recommendation. We are committed to ensuring
that our RPM’s and project officers have the tools necessary to properly oversee USACE work.
OSWER will work with OARM to review current IAGs for terms and conditions relating to EPA
monitoring of USACE costs, quality, and timeliness. Upon review of these IAGs, OSWER and
OARM will consider whether to recommend development of generic Superfund terms and
conditions.


OIG Recommendation 3-5 Develop a policy on how and when the feedback reports will be
used as an oversight tool to monitor and improve the cost, quality, and timeliness of the Corps’
performance.

EPA Response:

       OSWER will develop a plan for how and when the feedback reports will be used as an
oversight tool to monitor and improve the cost, quality, and timeliness of USACE performance.

        OSWER developed the feedback system as a means to collect performance data on active
IAG projects assigned to USACE by EPA Regions. OSWER has been working on ways to more
fully utilize the data and believes that this new tool will provide useful information on areas that
are working well and will help to pinpoint the relatively few individual projects that need
improvement. Review of all feedback reports, beyond the negative reports presented by the IG,




                                                23

shows that currently most respondents are very satisfied with the overall project management of
USACE and with the quality of products or services provided by USACE contractors.


III. OTHER EPA COMMENTS:

        Prior to this OIG report, OSWER identified a number of the areas for improvement in
EPA’s use of USACE and efforts have begun to help address these areas. This OIG report will
reinforce these ongoing efforts.


Specific Comments

Chapter 1, Introduction:

1) Pages 1 and 2, third paragraph under ‘Background’:

       “Remedial Project Managers (RPMs) in regional offices manage Superfund IAGs. RPMs
       recommend the mechanisms (e.g., another Federal agency such as the Corps) for
       cleaning up the site. RPMs have to work with EPA contracting officers and contractors
       when using EPA contracts. When RPMs use the Corps via IAGs, they have less work
       because they transfer most administrative tasks to the Corps for awarding and managing
       the cleanup contracts. EPA explained the Corps also offers unique strengths to the
       Agency in areas of design, construction, claims, and independent government cost
       estimates. Also, RPMs have to monitor the contractor’s cost and work when EPA
       contracts are used, while the Corps monitors cost and work of the contractors when IAGs
       are used. The RPM is responsible for monitoring the cost and work of the Corps through
       site visits, monthly reports, and conference calls...”

EPA Response:

        We recommend that the fourth sentence in the above paragraph be changed to read,
“When RPMs use the Corps via IAGs, they have fewer contracting duties less work because they
transfer most administrative tasks to the Corps for awarding and managing the cleanup
contracts.”

         The above paragraph incorrectly states that RPMs have less work when they use the
USACE under an IAG. The amount of work that RPMs have is unrelated to whether they are
using the USACE under an IAG. Use of the USACE relieves the RPM of many of the
contracting duties, freeing up the RPM to focus on other responsibilities in the site remediation
process. RPMs are generally assigned a large amount of work that is commensurate with their
skills, expertise and experience.

      Even when using the USACE, the work can be substantial. After the initial planning is
completed and the RD/ RA begins, the RPM is responsible for ensuring that the project




                                                24

progresses on schedule and within budget. To do so, the RPM manages and monitors USACE
activities through a multitude of activities, including:
•	 Initiating and maintaining frequent communications with project participants via conference
    calls
•	 Conducting regular meetings to discuss RD and RA progress
•	 Identifying issues and taking corrective actions as necessary
•	 Documenting meetings and conference calls
•	 Ensuring timely review of key deliverables
•	 Organizing and managing activities of a Technical Review Team within EPA that will assist
    in the review of project deliverables
•	 Establishing a communications strategy for the site
•	 Coordinating with the state and the public regarding site progress
•	 Helping to ensure that all applicable or relevant and appropriate requirements (ARARs) are
    identified and incorporated into RD and RA activities
•	 Helping to ensure that the record of decision’s remedial action objectives, environmental and
    health-based requirements, and cleanup goals are met during RD/RA activities
•	 Helping to ensure that quality assurance/quality control requirements for data collection and
    analyses, and documentation within deliverables are followed

       Upon completion of the RD/RA, the RPM also helps to ensure that all appropriate
procedures for closing out the IAG with USACE are followed.

2) Page 2, fourth paragraph under ‘Background’:
       “In Fiscal Years 2005 and 2006, EPA paid the Corps over $261 million and $255
       million, respectively for Superfund IAGs (see Table 1-2). These payments were for costs
       of the Corps oversight (in-house) as well as the cost for the Corps’ contractor that
       performed the work.


              Table 1-2: Superfund IAG Payments to the Corps

              Fiscal Year 2005

              In-House               $86,591,000           33%         

              Contractor             $174,652,000          67% 

                     Total           $261,243,000

              Fiscal Year 2006

              In-House            $74,759,000          29%             

              Contractor          $180,905,000         71% 

                     Total        $255,664,000

              Source: EPA Cincinnati Finance Center” 





                                               25

EPA Response:

       The above text description and Table 1-2 regarding “Superfund IAG Payments to the
Corps” is inaccurate.
   •	 Table 1-2 should label “In-house” as “Non Direct Cite Charges”
       USACE’s “In-house” charges noted in Table 1-2 include payments for a number of
       activities in addition to USACE contractor oversight for RD/RA projects. These
       activities include USACE staff work in conducting project management, field
       investigations, remedial investigation / feasibility studies (RI/FS), enforcement oversight
       support, operation and maintenance, real estate relocations and acquisitions, cost
       estimating and Five-Year Reviews. These activities also include USACE contractor
       work on ‘non-construction’ activities (such as contractor support on RI/FS, operation and
       maintenance, laboratory analyses, site access support, property acquisition and relocation
       activities, litigation support, radiological waste disposal, and field investigation
       activities).
   •	 Table 1-2 should label “Contractor” as “EPA Direct Cite Payments to USACE 

       contractors” 



Chapter 2, IAG Award Process Could be Further Improved

1) 	Page 5, first paragraph:
       “EPA needs to better justify and support its decisions to enter into Superfund IAGs with
       the Corps. Eleven of the 12 decision memorandums we reviewed for projects awarded to
       the Corps contained no comparisons of alternatives. Further, EPA did not develop its
       own independent cost estimates. This occurred because EPA generally believes that the
       Corps is more capable of managing Superfund projects. Also, OSWER and OARM did
       not hold regions accountable to follow policies for awarding and justifying IAGs. As a
       result…”

EPA Response:

        We recommend that the fourth sentence be deleted and the fifth sentence modified to
read: "This occurred because OSWER and OARM did not hold the regions accountable to follow
policies for awarding and justifying IAGs.”

        The fourth sentence as currently written does not accurately reflect the reasons why the
EPA often decides to use the Corps. It is the Corp's construction and contracting expertise, not
their Superfund project management expertise that often makes the Corps an attractive
alternative in the Superfund program.




                                                26

Chapter 3, EPA Needs to Improve Monitoring of Superfund IAGs Awarded to the Corps:

1) Page 14, fourth paragraph:
      “For example according to documentation in an award fee review report, 1 of the 26
      IAGs we reviewed, valued at almost $88 million, experienced poor Corps’ oversight of its
      contractor that resulted in the collapse of a building due to over excavation. In addition,
      poor oversight resulted in sewer lines being broken, poor planning, inaccurate costs
      estimates, and untimely work. Although the Corps and its contractor performed poorly,
      the Corps’ contractor received over $400,000 in questionable award fees during periods
      of poor performance. EPA also paid the Corps over $3 million for insufficient oversight
      of its contractor.”

EPA Response:

First sentence in above text:

        This sentence is not accurate. A small corner of the building foundation collapsed.
USACE severely reprimanded the RA contractor. The contractor did not bill the Government for
the repair of the building.

Second sentence in above text:

        This sentence is not accurate. The sewer system in this area was over 75 years old and in
very poor condition. There were some problems with the RA contractor’s performance
regarding the bypass of the sewer lines. Numerous quality control deficiencies were reported
and letters were issued to the contractor by the USACE requesting improved performance (see
comment below). Furthermore, as a consequence of the contractor’s poor performance, the
contractor performance award fee for the period was significantly reduced.

Third sentence in above text:

        This sentence is not accurate, and EPA strongly disagrees that the USACE performed
poorly. USACE identified the performance problems with the RA contractor in a very timely
manner. USACE’s first step was to request a change in the RA contractor’s site superintendent,
then a few months later, the RA contractor’s site project manager. After the project manager was
replaced, the RA contractor’s performance significantly improved. Because of their poor
performance, the RA contractor lost over $660,000 in potential award fees.

Fourth sentence in above text:

        This sentence noting that USACE can perform poorly with no consequences is not
accurate.
        As discussed further in comments to Chapter 1, EPA’s RPMs manage and monitor
USACE’s activities and performance on IAGs through a number of other mechanisms, and
issues that arise are usually worked out through a variety of mechanisms.
• If issues arise regarding poor USACE performance, RPMs usually communicate these issues



                                               27

   directly to USACE project managers and discuss options to resolve these issues on a day-to
   day basis.
•	 RPMs conduct a variety of oversight functions when managing IAGs, including the
   following activities:
        o	 Initiate and maintain frequent communications with project participants via
           conference calls
        o	 Conduct regular meetings to discuss RD and RA progress
        o	 Identify issues and corrective actions as necessary
        o	 Document meetings and conference calls
        o	 Ensure timely review of key deliverables
        o	 Organize and manage activities of a Technical Review Team within EPA who assist
           in the review of project deliverables.
•	 If issues are not resolved at the RPM/USACE project manager level, RPMs elevate the issue
   to EPA Regional and USACE District office management. USACE and EPA Headquarters
   staff may also be contacted to help resolve issues.
•	 If EPA Regions remain dissatisfied with USACE performance, Regions may choose to
   transfer work to RACs contractors, States, or to in-house EPA contracting mechanisms.

       Thank you for the opportunity to review the draft report. If you have any questions
regarding our comments please contact Ken Skahn at 703-603-8801, Barbara McDonough at
703-603-9042 or Johnsie Webster, OSWER Audit Liaison at (202) 566-1912.

cc:    	James Woolford
       Howard Corcoran
       Johnsie Webster
       Joan Harrigan-Farrelly
       Elizabeth Southerland
       Barbara McDonough
       Regional Superfund Remedial Branch Chiefs
       Regional IAG Coordinators
       Ken Skahn




                                              28

                                                                                Appendix C

                                   Distribution
Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Assistant Administrator, Office of Administration and Resources Management
Agency Followup Official (the CFO)
Audit Followup Coordinator
Director, Office of Grants and Debarment
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Office of Administration and Resources Management
Regional Administrators (Regions 1, 2, 3, and 9)
Regional Audit Followup Coordinators (Regions 1, 2, 3, and 9)
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Acting Inspector General




                                           29

